<html>
<title> - DEMOCRACY SUPPORT STRATEGIES IN AFRICA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                 DEMOCRACY SUPPORT STRATEGIES IN AFRICA

=======================================================================

                                 HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 2016

                               __________

                           Serial No. 114-216

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE
20-175PDF                       WASHINGTON : 2016                        
                                 
_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2146514e614254525549444d510f424e4c0f">[email&#160;protected]</a>  
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                
                                ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. D. Bruce Wharton, Principal Deputy Assistant Secretary, 
  Bureau of African Affairs, U.S. Department of State............     4
Mr. Thomas Staal, Acting Assistant Administrator, Bureau for 
  Democracy, Conflict, and Humanitarian Assistance, U.S. Agency 
  for International Development..................................    16
Mr. Steven Feldstein, Deputy Assistant Secretary, Bureau of 
  Democracy, Human Rights, and Labor, U.S. Department of State...    26
Mr. Rushdi Nackerdien, regional director for Africa, 
  International Foundation for Electoral Systems.................    44
Mr. Patrick Merloe, senior associate and director of election 
  programs, National Democratic Institute........................    64
Mr. John Tomaszewski, acting regional director for Africa, 
  International Republican Institute.............................    72
Mr. Nii Akuetteh, executive director, The African Immigrant 
  Caucus.........................................................    85

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. D. Bruce Wharton: Prepared statement.........................     6
Mr. Thomas Staal: Prepared statement.............................    18
Mr. Steven Feldstein: Prepared statement.........................    29
Mr. Rushdi Nackerdien: Prepared statement........................    46
Mr. Patrick Merloe: Prepared statement...........................    67
Mr. John Tomaszewski: Prepared statement.........................    74
Mr. Nii Akuetteh: Prepared statement.............................    88

                                APPENDIX

Hearing notice...................................................   100
Hearing minutes..................................................   101
Questions submitted for the record by the Honorable Eliot L. 
  Engel, a Representative in Congress from the State of New York    102

 
                 DEMOCRACY SUPPORT STRATEGIES IN AFRICA

                              ----------                              


                        WEDNESDAY, MAY 18, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order and first of 
all I want to say to our distinguished witness I apologize--and 
to our guests who are here--that we do have a series of votes 
that have just been called.
    But I would like to get my opening comments. My good friend 
and colleague, Karen Bass, the ranking member, will join us 
immediately after the votes and then we'll just proceed with 
the hearing.
    But thank you for being here. Thank you for your patience 
with this delay while floor votes occur.
    The administration has increased funding for democracy in 
governance in Africa in the 2017 proposed budget by more than 
$168 million from the actual Fiscal Year 2015 funding.
    Many of us in Congress, realizing the importance of helping 
to facilitate free, fair and transparent elections in Africa, 
have long supported funding increases in this area. So it's 
very much welcomed.
    However, there are questions concerning the effective use 
of funds. According to the administration's budget explanation 
for Fiscal Year 2017, ``priority countries in Africa are 
falling behind in democracy, human rights, and governance, 
showing the deepest declines compared to other regions in the 
past 5 years.''
    The administration seems to have declined to intervene 
significantly in countries important to the U.S. interests such 
as Ghana, Equatorial Guinea, and Djibouti. Using Ghana as an 
example where the democracy funding request dipped slightly for 
Fiscal Year 2017, this hearing will examine U.S. electoral 
policy moving forward.
    In recent years, there has been a troubling trend in Africa 
toward leaders changing constitutions to allow them to run for 
a third term, not previously provided for in the law.
    The administration indeed has urged the Presidents of 
Burundi and Rwanda, for example, not to go for a third term. 
Neither leader heeded the call for restraint in this regard.
    In Burundi, the third term has caused serious upheaval and 
violence, resulting in an attempted coup, killing dozens of 
people, a crackdown on civil liberties and nearly 484,000 
people internally displaced or seeking asylum in other 
countries. This situation was caused by an election many felt 
was unacceptable.
    Other leaders, taking the Burundi and Rwanda example, are 
trying to seek extensions of their term in office as well. For 
example, Democratic Republic of the Congo's President Joseph 
Kabila is faced with a Constitution that not only limits him to 
two terms but prevents him from changing the Constitution to 
accommodate extending his rule.
    However, President Kabila's government is taking it slow in 
preparing for scheduled elections in November and is trying to 
undo the Constitution by requiring his continuing in office 
past the December 19 expiration of his mandate despite the 
constitutional restrictions.
    There was violence caused by an earlier Kabila attempt to 
change the Constitution and it has been widely predicted 
including by our own U.S. Department of State that even greater 
violence would result if the Kabila term is extended despite 
the constitutional bar for a third term.
    Even when election processes improve, problems can develop 
that cause mistrust which can lead to rejection of an election 
results and to more violence.
    Such results don't fade away easily. In Ghana, extremely 
close elections in 2008 led to mistrust of the process, 
especially when one district had to revote and held the key to 
who would be President.
    Four years later, advanced biometric technology failed, 
casting further doubt in the minds of some voters. As one of 
our witnesses today will share with us, there are concerns for 
the elections later this year based on an accumulation of 
suspicions from past elections, even though the 2008 and 2012 
were not judged by international observers to be particularly 
problematic.
    The case of Ghana points out key questions. When does the 
international community enter an election process and when does 
it exit? When do we know whether elections in a particular 
country need no further intervention? Does intervention have to 
be massive or are there tweaks in capacity building we can 
provide that will help make all the difference between an 
acceptable election or one in which voters refuse to accept the 
outcome?
    Election support is not merely a matter of money. It 
involves faith in the transparency and the fairness of the 
election process itself. The international community cannot 
achieve such trust among voters on our own.
    The country in question must experience a meeting of the 
minds between the ruling party and the government and the 
political opposition.
    There must be clear effective rules for elections that 
create a level playing field for all candidates and parties 
involved in the election process. Whatever flaws there may be 
in any election, the losing candidate must accept a legitimate 
loss and prepare for the next election.
    We look forward to hearing from our distinguished 
government witnesses about their strategies to effectively help 
governments hold free, fair, and transparent elections, and we 
look forward to our private witnesses as well to tell us how 
our strategies are working, what their recommendations are on 
how to make it even better.
    Again, we do have votes and the subcommittee will stand in 
recess for a brief period of time.
    [Recess.]
    Mr. Donovan [presiding]. I apologize to our witnesses and 
our guests. We just finished voting. Chairman Smith had another 
obligation. So my name is Dan Donovan. I'm a member of the 
Committee on Foreign Affairs and a member of the Subcommittee 
on Africa, Global Health, Global Human Rights, and 
International Organizatons and I'll be conducting the hearing.
    Let me introduce our first panel of witnesses. Ambassador 
Bruce Wharton, United States Department of State. Ambassador 
Bruce Wharton joined the African Bureau as Principal Deputy 
Assistant Secretary in December 2015.
    In his last assignment he served as the U.S. Ambassador to 
Zimbabwe from September 2012 to November 2015. He has served in 
several other positions with the African Bureau and in the 
Bureau of International Information Programs.
    Ambassador Wharton entered the Foreign Services in 1985 and 
has served in U.S. Embassies in Argentina, Chile, Bolivia, 
South Africa, Guatemala, and Zimbabwe. In Africa he has also 
worked in Tanzania, Nigeria, Kenya, and Ghana.
    Mr. Thomas Staal is currently the acting Assistant 
Administrator for the Bureau of Democracy, Conflict, and 
Humanitarian Assistance at USAID.
    He has worked for USAID since 1988, beginning in Sudan as 
an emergency program officer, and has worked in the USAID 
regional office in Kenya managing food aid and project 
development throughout eastern and southern Africa.
    Most recently, Mr. Staal served as the USAID Mission 
Director in Ethiopia. Before joining USAID he worked with World 
Vision as their country representative in Sudan.
    Our third panelist is Mr. Steven Feldstein, U.S. Department 
of State. He is a Deputy Assistant Secretary of State in the 
Bureau of Democracy, Human Rights, and Labor where his primary 
responsibility is for work in Africa on international labor 
affairs and international religious freedom.
    Previously, Mr. Feldstein served as the director of the 
Office of Policy in the Bureau of Policy, Planning, and 
Learning at USAID and served as counsel on the Senate Committee 
on Foreign Relations where he oversaw a portfolio that included 
oversight over all U.S. foreign assistance agencies, budgets 
and programs, State Department management and operations, and 
international organizations.
    I welcome all our panelists today and I thank you for your 
testimony you're about to give. So we'll start. Mr. Wharton, if 
you would give your remarks for the 5 minutes, Ambassador. 
Thank you very much.

 STATEMENT OF MR. D. BRUCE WHARTON, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Wharton. Thank you very much, Mr. Chairman, and 
members of the subcommittee, for the opportunity to testify 
today on democracy support strategies for Africa.
    While the people and governments of Africa have made 
significant strides in recent years, they and we must still 
address the challenges associated with the closing of political 
space in certain countries.
    Over the next few minutes I would like to talk about both 
the progress that's been made and where more work still remains 
to be done.
    Our country has long been committed across administrations 
and party lines to partnering with the people and governments 
of Africa to promote democracy, human rights, and good 
governance.
    Strengthening democratic institutions is in fact the first 
pillar of President Obama's 2012 Presidential Policy Directive 
for Africa.
    Now, in the past year there have been political openings 
and electoral successes in countries ranging in size from Cape 
Verde to Nigeria and including Burkina Faso, Senegal and Benin.
    I have had the honor of being part of U.S. delegations to 
several of the recent Presidential inaugurations. An election 
itself, though, is neither the beginning nor the end of 
democratic process.
    Even the democratically-elected leader may choose to ignore 
term limits, may manipulate the electoral process for personal 
advantage or may impose restrictions that impede opposition.
    We face such situations in Burundi, the Democratic Republic 
of the Congo, the Republic of the Congo, Rwanda, and Uganda, 
just to name a few. It's vital that the United States stay the 
course with policies and programs that foster democracy in the 
long run, no matter how great the challenge.
    And democracy does not happen overnight. Instability, 
insecurity, corruption, and inequality stand in the way and 
that is why we must engage in aggressive diplomatic and 
assistance efforts to help resolve conflicts, implement peace 
agreements, support elections, and preserve democratic space 
and we have seen some successes.
    In the Central African Republic, for example, the recent 
peaceful election of President Touadera and the continuing 
democratic transition are positive steps. But sustained 
international attention is essential to ending the cycle of 
violence and helping create long-term stability.
    We are helping to build CAR's judicial structure including 
development of its special criminal court. We are focusing on 
community-level peace and reconciliation and expanding access 
to justice through legal training and mobile courts.
    Nigeria's 2015 elections were historic not just for sub-
Saharan Africa's most populous country and largest economy but 
for the entire continent.
    We work very hard up front at the highest levels of the 
administration to impress upon all parties the need for an 
election that was free, fair, credible, and peaceful and this 
is what Nigeria delivered.
    People showed up early to vote, stayed late to ensure their 
votes were counted, and ultimately elected a new government. 
This was the first peaceful democratic transfer of power to an 
opposition party in Nigeria in history and U.S.-Nigerian 
relations are stronger today than they have been in many years.
    Now we stand ready to support the commitments Nigeria made 
this month at the UK Anti-Corruption Summit on issues such as 
beneficial ownership, fiscal and tax transparency, asset 
recovery and open contracting.
    Opportunities and challenges abound. No fewer than 16 
African countries have national elections this year. We will 
continue to support regular democratic transitions of power and 
speak out against those in power who seek to change 
constitutions to extend their own tenure.
    Regular democratic transitions provide opportunities for 
Africans to participate in the political process and hold their 
governments accountable while contributing to the stability 
across the continent.
    Transparent and credible elections help prevent feelings of 
injustice and alienation that can lead some to extremism and 
violence. In advance of elections, we support programs to 
counter violence and promote reconciliation, working with 
leaders from diverse political, religious, and ethnic groups to 
promote tolerance, respect, and reform. It is clear that those 
investments pay dividends.
    We greatly appreciate the subcommittee's recognition of the 
fundamental importance of democracy in Africa and again ask 
your help in supporting our relevant funding requests.
    We are working to ensure that the fiscal 2016 allocations 
for democracy, rights, and governance in Africa reflect the 
most strategic allocation of scarce resources. We know the 
challenges are great but believe that the comprehensive 
approach we are pursuing is making progress and this will 
ultimately benefit the people of the United States as well as 
the people of Africa.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ambassador Wharton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Mr. Donovan. Thank you, Ambassador.
    Mr. Staal, the Chair recognizes you for your opening 
statement.

STATEMENT OF MR. THOMAS STAAL, ACTING ASSISTANT ADMINISTRATOR, 
 BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN ASSISTANCE, 
           U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Staal. Thank you, Chairman Donovan, members of the 
subcommittee. Thank you for the opportunity to appear before 
you today.
    As part of our mission to end extreme poverty and promote 
democratic resilient societies, USAID is a leader in democracy 
assistance around the world including in Africa.
    Several countries saw progress in the conduct of elections 
since the subcommittee held a hearing on this subject last year 
including in Nigeria, Cote d'Ivoire, Burkina Faso, and the 
Central African Republic.
    Many national and regional institutions have improved their 
capacity to facilitate credible elections including electoral 
bodies we supported in Nigeria and Cote d'Ivoire. Citizens are 
more engaged and connected than ever.
    With our support, domestic election observers are 
leveraging innovative technology and carrying out advanced 
parallel vote tabulations--PVTs--to confirm election results.
    In Nigeria, we trained 3,000 domestic monitors to do PVTs 
and also in Zambia and Cote d'Ivoire. Yet, Africa still faces 
important challenges. The youth desperately want the chance to 
have a say in their future. But several African leaders refuse 
to pass the baton.
    The average age of the 10 oldest African leaders is 78\1/2\ 
years old while the average age of an African citizen is just 
19\1/2\.
    The trend of abolishing or extending term limits continues 
and incumbents are employing tactics to create an uneven 
playing field long before they face the election.
    Leaders are, unfortunately, sharing worst practices 
including using surveillance technologies and imposing complex 
legal and fiscal restrictions on civil society and the media.
    As more citizens go online, authorities are restricting 
Internet access, as we saw last week during Uganda's 
Presidential inauguration. Recent crackdowns like the ones 
we've seen in Burundi, Uganda and the Democratic Republic of 
the Congo are not only a threat to democracy but to regional 
security.
    For decades, USAID has supported African reformers and 
citizens who seek to promote good governance and democratic 
processes. Our support helps build the enabling conditions for 
credible elections to take place--strong judiciary and 
legislature, competitive parties, a free press and free 
Internet and an engaged civil society.
    These efforts would not be possible without our partners 
including those testifying later today and our local African 
partners play a critical role in sustaining democratic gains as 
well.
    Our strategic approach to electoral assistance is informed 
by several lessons learned over the last number of years.
    First, USAID's electoral investments are tailored to the 
specific political context in and out of the country and 
informed by long-term partnerships with the host government and 
civil society to support the foundations of a democratic 
movement and a democratic government.
    For instance, the positive impact of our electoral efforts 
in Nigeria and Zambia were the result of many years of 
sustained engagement in broader democracy assistance in both 
countries.
    USAID's democracy officers across our missions in Africa 
help us maximize the opportunity to expand democratic gains and 
overcome challenges.
    Second, our long-term electoral assistance is coupled with 
flexibility to respond to unforeseen challenges and windows of 
opportunity. For example, in Guinea's elections we quickly 
mobilized our elections and political processes funds to keep 
reporters broadcasting the vote count. This reassured the 
public and opposition parties that the process was fair.
    Third, our early and robust conflict mitigation efforts 
have made a difference in averting electoral violence. For 
example, we supported the West Africa Network for Peace 
Building's early warning system to mitigate trigger points for 
electoral violence, for instance, in Burkina Faso.
    In Cote D'Ivoire, USAID's Office of Transition Initiatives 
mobilized a successful arts campaign to promote peaceful 
political participation and in Nigeria, we integrated conflict 
mitigation across all of our multi-year programs.
    And fourth, we proactively empower political parties, civil 
society and the media to combat efforts by incumbents to close 
the space for political engagement.
    As part of President Obama's Stand With Civil Society 
Initiative we are creating a hub for African civil society to 
share tactics and successes to overcome common restrictions 
that they face.
    Our global Information Security Coalition has trained and 
mentored African organizations and individuals in digital and 
mobile security.
    And then, finally, we coordinate closely with our 
diplomatic and donor partners to maximize impact as we did in 
Nigeria to ensure that displaced populations could vote and CAR 
to promote local peace building before the elections.
    So as we look ahead, we will seek to sustain democratic 
gains in Ghana, in Zambia, and other countries; promote 
peaceful and inclusive elections, in Kenya; and encourage a 
timely and credible election timetable in the DRC, in 
partnership with democratic reformers.
    Thank you very much and I look forward to your questions.
    [The prepared statement of Mr. Staal follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Donovan. Thank you very much for your opening 
statement, Mr. Staal.
    The Chair recognizes Mr. Feldstein for an opening 
statement.

STATEMENT OF MR. STEVEN FELDSTEIN, DEPUTY ASSISTANT SECRETARY, 
 BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. DEPARTMENT 
                            OF STATE

    Mr. Feldstein. Thank you, Mr. Chairman, Ranking Member Bass 
and members of the subcommittee for the opportunity to testify 
today.
    Advancing democracy in Africa is a top priority for the 
administration. In the last year we have seen significant 
democratic advances in several countries.
    Nigeria, for example, held successful elections last year 
that led to the country's first democratic transition between 
parties since the end of military rule.
    Similarly, I just returned from a trip to Burkina Faso and 
the Central African Republic where both countries elected 
reform-minded Presidents. Each country now has a moment of 
opportunity to enact bold reforms and build democratic 
foundations.
    Despite these positive developments, democracy in other 
parts of Africa has deteriorated. In too many places the pre-
electoral environment and the space available for civic 
participation remains restrictive and flawed.
    Too many entrenched leaders continue to manipulate their 
countries' constitutions, judiciaries and electoral processes 
to indefinitely extend their time in office.
    They systematically thwart citizens' rights to choose their 
leaders without pressure or fear and those who protest in the 
street are arrested, detained, tortured and beaten.
    Recent events in Uganda illustrate how a government can 
curb fundamental freedoms and eviscerate the credibility of an 
electoral process. Leading up to and following the February 
18th elections, the Government of Uganda harassed and arrested 
opposition supporters, restricted media, and pressured civil 
society.
    During the contest itself, Uganda blocked social media and 
limited communications. In the days following the elections, 
security forces held opposition candidate Besigye under house 
arrest for 42 days. The government arrested Mr. Besigye again 
last week, the day before President Museveni's inauguration.
    He has reportedly been charged with treason and transferred 
to a maximum security prison in part because of his demand for 
an independent international audit of the election.
    Uganda has banned all live reporting of opposition party 
protests and arrested dozens of others. The government has also 
put forward a bill that would give it outright power to control 
communications.
    We have repeatedly urged the government to protect and 
preserve the basic freedoms of citizens and will continue to do 
so.
    I recently visited Burkina Faso, which is an example of a 
country where a leader's overreach led to unrest and ultimately 
his removal from power but also where we are partnering with 
new leadership to chart a more democratic way forward.
    A vibrant civil society led by an energized youth movement 
of artisan musicians--Le Balai Citoyen or Citizen's Broom--
broke 27 years of one-man rule and gave rise to the country's 
first democratic elections since 1978.
    As Burkina Faso takes a step forward, other leaders in the 
region continue to undermine democracy by changing 
constitutions and using additional means to extend their stay 
in office.
    For example, Rwanda President Paul Kagame has repeatedly 
stated his commitment to respect constitutional term limits and 
to mentor a new generation of leaders. We were deeply 
disappointed when earlier this year Kagame announced his intent 
to stand for a third term and held a snap constitutional 
referendum to cement this decision.
    In making this choice, he missed a significant opportunity 
to deepen democracy in Rwanda and demonstrate global 
leadership.
    The violence currently afflicting Burundi is a revealing 
example of how anti-democratic policies, namely violating the 
Arusha Accords by running for a third term, can rapidly lead to 
widespread human rights violations, civilian casualties and 
increased risk of mass atrocities.
    The ongoing crisis in Burundi has resulted in hundreds of 
lives lost and over 260,000 refugees fleeing the country. 
Burundi has experienced 10 years of progress in reconciliation 
and development but is now deeply destabilized and struggling 
with a crumbling economy.
    Burundi is a cautionary tale for the unfolding political 
crisis in the neighboring Democratic Republic of the Congo. 
According to the DRC's Constitution, the President is limited 
to two terms in office.
    Elections are scheduled for November 2016 at which point 
the DRC should experience its first democratic transition in 
power which would mark a monumental step toward solidifying the 
DRC's fragile democratic progress.
    Instead, President Kabila is delaying elections through a 
strategy of ``glissement,'' or slippage, and refusing to 
announce his intention to step down at the end of his term.
    The government continues to undermine the democratic 
process by harassing, arresting and intimidating civil society 
and opposition leaders.
    Security forces are increasingly willing to use excessive 
force including against peaceful protestors. This combustible 
combination threatens the security of the DRC and the broader 
stability of central Africa.
    We believe that officials within the DRC Government have 
the individual responsibility to uphold human rights. We have 
repeatedly made clear that the U.S. is prepared to impose 
targeted sanctions against those responsible for human rights 
violations or propagating violence and we do believe the voices 
of the Congolese people should determine the future of the 
Congo.
    I'd like to highlight a final issue: Fighting corruption 
and kleptocracy. In too many countries, the rent-seeking 
opportunities of elected office provide a lucrative incentive 
for entrenched leaders to steal from state coffers and cling to 
power.
    Unfettered access to state resources personally enriches 
rulers with ill-gotten gains and provides leaders with the 
means to buy the loyalty needed to sustain power.
    In conclusion, we will continue to advance a democracy 
strategy with a strong emphasis on respect for the rule of law, 
human rights and civil society.
    To be successful, we need sufficient resources to support 
our efforts and we appreciate your support.
    Thank you for the opportunity to address the committee 
today and I look forward to your questions.
    [The prepared statement of Mr. Feldstein follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Donovan. Thank you for your statement, Mr. Feldstein.
    Before I ask my questions I'd also like to recognize the 
opposition leaders from the Democratic Republic of the Congo 
who are with us here today. Welcome.
    I'll begin the questioning by asking maybe Ambassador 
Wharton, the United States has strategic interest in Africa and 
sometimes they seem to overcome the commitments to democracy in 
various countries.
    How can there be a consistency in U.S. policy for democracy 
in Africa if strategic countries aren't sanctioned for 
violations and at times less strategic countries are sanctioned 
for the same behavior?
    Ambassador Wharton. Thank you for that question, Mr. 
Chairman.
    It is a difficult balance. We have to pursue in one moment 
though a broad variety of our interests and concerns in Africa 
and I believe that in countries where we have an bimportant 
security relationship could include Uganda, could include 
Rwanda, could include Ethiopia.
    We can actually use that opening--the points of contact and 
the points of discussion on security--as a means of raising our 
broader concerns about human rights, citizen rights, rule of 
law, electoral process. So we need to be able to pursue these 
things simultaneously.
    But as I said, it does require a balanced nuanced approach.
    Mr. Donovan. One question, Ambassador.
    Do the countries give us any reasons for these violations? 
Do they violate their own agreements with us or their own 
constitutions when it's brought to their attention?
    Ambassador Wharton. One of the characteristics that I have 
noticed among certain African leaders is this huge emphasis on 
stability and what I believe is a mistaken assumption that lack 
of change equals stability.
    But in a country like the DRC, for example, that has a 
terrible history of bloodshed and violence, I think that there 
is at least among some of the current leadership the idea that 
maintaining things under control and maintaining stability is 
the best way to ensure progress into the future.
    Again, I think that's a mistaken assumption and that's one 
of the talking points--one of the messages that we seek to 
relay to counterparts in countries like the DRC. We do believe 
that the democratic process which, of course, is much more than 
elections, is the surest way toward bringing citizens into 
political life and ensuring progress and stability.
    Mr. Donovan. Thank you, sir.
    Mr. Staal, I'd like to ask, in the omnibus bill that we 
passed last year, Congress legislated that USAID shall 
implement civil society and political competition and 
consensus-building programs abroad in a manner that recognizes 
the unique benefits of grants and cooperation agreements.
    To what extent has USAID followed this mandate to date?
    Mr. Staal. Thank you for that question. It's a critical 
issue that we do take very seriously and in fact we're in 
consultations right now with members of the committee and our 
implementing partners to look at this balance of grants and 
cooperative agreements, with contracts, to make sure that it's 
meeting the needs of everybody involved.
    Each country we look at specific conditions in that country 
to make sure that the programs that we have are relevant to, 
and appropriate to and meeting the needs there.
    Overall, our balance has been about two-thirds have gone to 
grants and about one-third to cooperative agreements--to 
contracts, and what we're doing is working on some supplemental 
guidance for our contract officers who would do the awards to 
make sure that it's clear exactly what the standards are and 
that it's consistent and that it's--and we're doing that in a 
consultative fashion with our implementing partners.
    Mr. Donovan. Thank you. The clock hasn't started so I don't 
know if my time is nearly up. So let me just ask Mr. Feldstein 
a question before we move on.
    You mentioned providing funding for election observations 
in IRI and NDI. Since the wave of democracy in the 1990s fewer 
U.S. election observer missions have been supported.
    How critical are these observation missions at this point 
since it's been reported that there's a backsliding on 
democratic election process in many African countries?
    Mr. Feldstein. Thank you for the question, Mr. Chairman.
    I think that the process supporting electoral observation 
issues is a critical part to supporting our democracy efforts 
in several ways.
    First of all, I think it signals very specifically that the 
international community is paying particular attention to a 
given situation. It also is able to get a wider array of eyes 
on the ground to observe a particular situation, especially in 
the area of a contested election, where we believe there is 
risk of instability or risk of violence.
    So a good example is where we did fund a successful 
electoral observation mission recently was Nigeria where I 
think there were significant concerns about the potential for 
violence breaking out in the country but I think in part 
because of strong messaging, a diplomatic strategy paired with 
eyes on the ground we were able to work with all sides and 
actually lead to a very successful outcome.
    Not all situations warrant this type of investment. It is 
expensive and is something that takes a certain commitment. But 
I think in places where there is a viable contested election 
and there is the potential for some problems I think this can 
be a very important tool for us to continue using.
    Mr. Donovan. Thank you very much. My time has had to have 
expired by now. The Chair now recognizes the ranking member of 
the subcommittee, my friend, Congresswoman Bass.
    Ms. Bass. Thank you, Mr. Chair.
    I want to follow up on a couple of questions with Mr. 
Staal.
    The chair was asking you questions about some of the 
contracts and all democracy related and I just wanted to ask 
you if we give any contracts to for-profit organizations to 
help with democracy and election U.S.-based and also do we 
provide any contracts to indigenous groups in various countries 
where we're working?
    Mr. Staal. Thank you for that question, Ranking Member 
Bass.
    I can get you some details of specific contracts. I have to 
admit I don't have them off the top of my head.
    [The information referred to follows:]
   Written Response Received from Mr. Thomas Staal to Question Asked 
             During the Hearing by the Honorable Karen Bass
    To answer this question, we analyzed total USAID assistance for 
elections held in calendar year 2015 in sub-Saharan Africa. USAID 
provided $31.4 million in assistance for elections to seven countries 
in Africa with 2015 elections--Nigeria, Tanzania, Cote d'Ivoire, 
Burkina Faso, Burundi, Zambia, and Guinea. One hundred percent of the 
$31.4 million in total assistance was provided through assistance 
agreements, which by their very nature do not permit the implementing 
organizations to take a profit. Additionally, USAID provided 35 
percent--or $11.1 million--of the total elections assistance for these 
seven countries to local host country organizations through sub-grants.

    Ms. Bass. Okay.
    Mr. Staal. We do some contracting in individual cases in 
certain countries. As I mentioned, the majority--about two-
thirds of our programs are done through grants and cooperative 
agreements. But in certain circumstances----
    Ms. Bass. But grants--so tell me a little bit about that. 
Grants and cooperative agreements with who or what?
    Mr. Staal. Those are primarily with nonprofit 
organizations.
    Ms. Bass. U.S.-based?
    Mr. Staal. U.S.-based, yeah. And then in certain cases we 
do provide direct funding to local organizations in given 
countries where they have the capacity.
    Ms. Bass. Right.
    Mr. Staal. So, for instance, in Ghana which is further 
along than some others we're able to work directly with civil 
society organizations and give them assistance.
    Ms. Bass. I attended the summit last year, especially the 
YALI part of it where President Obama was in a townhall meeting 
with the YALI participants and one of them stood up and said 
that they wished that some of the millions of dollars that we 
provide in Africa could actually go to African organizations.
    And to me, when I think of leadership development, I think 
of it at a lot of different levels. So we worry about elections 
but what about all of the leadership so that people develop the 
capacity to run for office and wondering what level of 
investment we have there?
    Mr. Staal. That's a critical question. Thank you very much, 
and we believe very strongly in that as well and we can do 
that, we feel, through a variety of mechanisms.
    Sometimes it's through a U.S., usually a nonprofit 
organization, who in turn then can provide support to a number 
of indigenous organizations and in some cases where the 
indigenous organizations have the capability, the management 
and financial capability we're able to provide funding directly 
to them.
    Ms. Bass. And the question is what is our investment in 
helping them obtain that capacity?
    Mr. Staal. Absolutely. That is part of our civil society 
strengthening programs to build that capacity management, 
accounting and so on and, frankly, for instance, in Kenya we 
have a program working with the women voters to build their 
capacity to vote, to run as candidates and even after they 
become leaders to do that. There's a whole process of work 
through that.
    Ms. Bass. So if you would, I would appreciate you providing 
a breakdown. I would like to know how much funding goes to for 
profit U.S.-based organizations, nonprofits and then how much 
goes to indigenous groups and what is our funding for capacity 
building.
    Mr. Staal. Sure.
    Ms. Bass. You know, just like with Feed the Future----
    Mr. Staal. Yes.
    Ms. Bass [continuing]. The goal is for Africans to feed 
Africans.
    Mr. Staal. That's right.
    [The information referred to follows:]
   Written Response Received from Mr. Thomas Staal to Question Asked 
             During the Hearing by the Honorable Karen Bass
    In answer to your question, and as described previously, an 
analysis of USAID's support for elections in calendar year 2015 in sub 
Saharan Africa across seven countries (Nigeria, Tanzania, Cote 
d'Ivoire, Burkina Faso, Burundi, Zambia, and Guinea), reveals USAID 
provided 65 percent or $20.3 million to U.S. based organizations to 
manage electoral assistance programs, while the remaining 35 percent 
($11.1 million) was managed by local host country organizations through 
sub-grants.

    Ms. Bass. And so, to me, while we focus on elections, let's 
focus on building the capacity as well.
    Ambassador Wharton, you mentioned that sometimes stability 
can be confused with not changing leadership.
    I do worry sometimes though in those countries where from 
the U.S. perspective we push term limits and want people to 
step down. But I worry sometimes as to whether or not there 
really is the leadership there. Given that we have so many 
experiences around the continent--the failed states that 
sometimes in our urgency for turnover in leadership we can wind 
up with that.
    So I'm wondering what your thoughts are. DRC, for example, 
Liberia, any number of countries where elections are pending 
and where we're nervous. I don't think we're nervous about 
Liberia in terms of the President staying there but we 
certainly are in DRC.
    What is your concern or your opinion about leadership 
potential there?
    Ambassador Wharton. Well, two or three thoughts come to 
mind. Thank you for the question, of course.
    The first is is that we're not in this alone--that we need 
to seek coalitions of African partners that share our concerns. 
This should not be the United States versus the DRC or the 
United States versus Liberia.
    This should be something that the AU takes on as they had 
with Burundi, for example. I think we'll be much more effective 
if we approach these problems of governance and term limits 
from that broader perspective.
    Ultimately, I believe that democracy is a process. An 
election is part of that process. It's our view that when 
someone stays in power for a long, long time that process slows 
down and stops.
    Ms. Bass. Sure.
    Ambassador Wharton. So one of the responses to that is to 
look at how we build stronger institutions that are stronger 
than individuals, to paraphrase what President Obama said in 
Ghana, and that includes military institutions, frankly.
    A military that responds to civilian control is an 
important part of the democratic process--a free media--civil 
society that's strong and capable of taking off the sorts of 
work that civil society does in our country, for example. So 
those are partial responses to this longer problem.
    I think that several African leaders have said to me, you 
need to give us time, we're young democracies, we're still 
maturing, and there's some point to that. But I would love to 
be able to watch African political systems skip generations the 
way some of their technical adaptations have skipped 
generations and move ahead more quickly so we will work on 
that.
    Ms. Bass. I think that's a good point. I often register 
that point as to look where we were 50 years into the United 
States.
    Things were a mess, and we have expectations that countries 
will establish a democracy and 2 years later they're going to 
function like us as though we don't have any warts here, as 
though our elections go off with no problems.
    Mr. Staal, with everything I would like to ask you about 
also and that is support that we might have to the AU. So in 
other words, it's one thing for us to support individual 
countries but given that this is a priority of the AU, you 
know, what level of support do we provide to the AU for 
capacity building leadership development?
    And then finally, for Mr. Feldstein, there are 54 countries 
on the continent--some would argue 55, if you want to get into 
that. There are a lot of elections that happen peacefully, 
orderly. A lot of transitions of power. Oftentimes we just 
focus on the problem. So maybe you could speak to the elections 
that went well.
    Why did they go well? Why was there a peaceful transition 
in Namibia, for example? Several countries on the continent had 
elections that were run well, peaceful transitions of power and 
we gave them very little attention.
    Mr. Staal. Thank you for the question about the support to 
the AU. We actually have a USAID Foreign Service Officer based 
in Ethiopia who sits with the Ambassador to the AU--a USAID 
staff person managing several programs, actually providing 
capacity building to the AU on a number of things based on 
their request for assistance on the peace building, on other 
things.
    And then, of course, we also have support to many of the 
regional organizations--ECOWAS, SADC, and IGAD. That's a 
critical part of our support.
    Ms. Bass. In terms of the AU I was thinking specifically on 
the democracy leadership development, and I appreciate that.
    Mr. Staal. Right. Okay.
    Ms. Bass. Thank you.
    Mr. Feldstein. Thank you for the question regarding good as 
well as bad elections, and I fully agree with you that there 
are many instances of places that had good elections in the 
past year.
    I would add to Burkina Faso and Central African Republic, 
Benin, Cote D'Ivoire, and Namibia, as you mentioned as well, 
and I think those are not only good examples and models for the 
region but I think there's a lot of lessons learned that can be 
implanted.
    One of the things that I find interesting is that just as 
you sometimes see modelling of certain types of bad laws like 
NGO-restrictive laws or modelling when it comes to the term 
limits issue, you can also see positive modelling the other way 
where countries like Senegal, which have made great strides 
when it comes to solidifying and consolidating democracy are 
able to talk to and do exchanges with other countries and say 
this is how it can be done better--this is how you build 
political institutions and so forth.
    So I agree that sometimes we do have a tendency to focus on 
the problems. I think that's part of the human rights 
community. It's part of what we tend to really concentrate on 
and we say where are there issues, where are there atrocities, 
where is there a risk of something bad happening and we throw 
all our resources and attention there.
    But it is important to recognize that there is a lot of 
progress being made on the continent and that gives me hope. 
Coming back from this last trip to Central African Republic and 
Burkina Faso I saw a lot of that and it really has given me a 
positive more optimistic viewpoint about where things 
potentially can go as we continue heading into the year.
    Mr. Donovan. Thank you, Congresswoman Bass.
    Now I turn to my friend from Florida, the gentleman Mr. 
Clawson.
    Mr. Clawson. Lost in thought. From a 30,000 foot level, 
seems to me that assistance for the continent for medical care: 
Ebola, malaria, all the mosquito-borne stuff--sounds like 
that's something America would do. Europeans step up. I like 
that. Anything that could protect property rights and therefore 
induce investment. That sounds like a long putt but good idea 
because if we don't get investment because everybody just makes 
off with the cash the average person is never going to get a 
lot better life. I think you all agree with that too.
    American money for elections, I remember living in Europe 
and in France in the 1990s and looking down at the continent. I 
remember doing business on the continent and always saying what 
a mess in terms of elections. Human rights, kleptocracy.
    Do we get our bang for our buck on that part of it? If I 
said to you all show me the money we spent in the 1990s, 
Ambassador--we spent a lot of money in the 1990s in places that 
aren't any better and sometimes worse, right? Am I right or 
wrong about that?
    Are we really getting better, given all the American tax 
money? No one likes a zero return on investment. What matters 
to me is a net gain and I feel like we do net gain on 
healthcare and other direct assistance for people that really 
need it.
    But I'm not so sure that in the dictators we've supported 
or elections that we've tried to help that we really get a 
direct return on that. Am I right or wrong? And I'm sure you're 
going to tell me I'm wrong and I'll accept your answer.
    Ambassador Wharton. Congressman, I would never tell you 
that you were wrong but I could beg----
    Mr. Clawson. Everybody else does.
    Ambassador Wharton. I could beg to differ. No. Look, you 
raise a very important point. I feel the same way sometimes on 
a day to day basis or a weekly basis. I feel like I'm banging 
my head against the wall.
    Mr. Clawson. Is Nigeria really any better than it was 20 
years ago?
    Ambassador Wharton. Absolutely. Yes, sir. Absolutely.
    In 1985 when I joined the Foreign Service there were two 
democratic governments in Africa. Today, there are, arguably, 
25 or 30.
    I do believe that democracies don't go to war with one 
another the way authoritarian states do. So that's a plus for 
us.
    The rise of the African middle class--you've got 1 billion 
people today, 2 billion people by 2050. That is an enormous 
market for American goods and services.
    We need to be there now to help establish clear rule of law 
court systems, legal systems that will protect American 
investors and American businesses when we're able to more fully 
take advantage of the rising middle class in Africa.
    You rightly point out the work that we do on public 
health--we should be extremely proud of that. We have saved 
literally millions of lives at, you know, tremendous expense to 
us as taxpayers but also tremendous benefit to the United 
States in terms of helping to keep our own country healthy--
helping keep disease away from our door.
    Mr. Clawson. Like everything you're telling me, how often 
do we support people that end up being crooks?
    Ambassador Wharton. I could not give you an exact 
percentage. It does happen.
    Mr. Staal. If I could add also, a recent study done by 
Mercy Corps on violent extremism in several countries showed 
that the primary drivers of violent extremism were injustice 
and a sense of unfairness, corruption and police or military 
brutality--all issues of democracy and good governance.
    And it's in those countries where either there's poor 
governance and bad practice--undemocratic practices or maybe a 
lack of ability to control certain parts of their country that 
these violent extremists come from.
    And so it's in our own personal interest as the United 
States to promote good solid democracy that's transparent, 
that's fair, that's reducing corruption and that's why it's so 
important that we have a good election in a place like Nigeria 
and so that they can then spread their good governance into the 
parts of the country where we're seeing violent extremists up 
in the Boko Haram area.
    Mr. Feldstein. I would just add to what my colleagues said 
in particular that I believe there's a nexus between good 
governance and a lack of humanitarian crises in places that are 
able to feed their own people and withstand and be resilient to 
disaster.
    And I think if you look at the many of the places that have 
suffered crises, whether it's Ethiopia several decades ago, 
whether it's looking at South Sudan more recently, the amount 
of money that ultimately entails the international community 
putting forth to protect lives, to deal with refugee flows, to 
help people avoid starvation, malnourishment and so forth, runs 
into the billions--the amount of money that peacekeeping forces 
cost once civil war breaks out runs into the billions.
    And so the idea, I think, for us is that if we can use an 
ounce of prevention in terms of good elections and helping to 
provide for better governance that will help forestall some of 
the larger crises at which point then there's little choice but 
to act.
    Mr. Clawson. Agree with all that. Just hope we get it 
right. Because if we support the bad guys it's the big men or 
the strong men, they make off with the cash then you got a 
whole bunch of people that aren't getting food and blame it on 
the U.S. because we're propping up crooks and I don't think 
that helps us either.
    So, you know, this is a tough task you all got. 
Humanitarian, private property, investment--I'm all for that. 
Thank you. I yield back.
    Mr. Donovan. The gentleman yields.
    I'd like to thank our witnesses for your attendance, your 
testimony and certainly for your honest answers.
    I invite the second panel. I thank you, gentlemen. I invite 
the second panel to take their positions.
    I welcome our second panel. Mr. Rushdi Nackerdien is the 
regional director for Africa at the International Foundation 
for Electoral Systems.
    With more than 20 years of experience in democracy and 
elections, he has led and pioneered complex international and 
national programs.
    Mr. Nackerdien has focused on electoral reform, capacity 
development, strategic planning, project and program 
evaluation, and expert advice in elections and development of 
e-learning materials with a special focus on Africa.
    He has advised the African Union in revising their election 
observation approach to incorporate a more comprehensive long-
term framework and worked in a wide range of African countries. 
Welcome, sir.
    Mr. Patrick Merloe is a senior associate and director of 
election programs at the National Democratic Institute. He has 
more than 30 years of experience in promoting citizen 
empowerment, governmental accountability and public policy 
advocacy and oversees many of the institute's programs.
    Mr. Merloe has participated in more than 150 international 
missions for NDI to more than 65 countries, concentrating on 
conflict-sensitive states and countries that are vulnerable to 
authoritarian tendencies and has produced a dozen publications 
on comprehensive law, human rights, and elections.
    John Tomaszewski--and I am Polish, sir, I don't know if you 
are, but you have to be a landsman--currently serves as an 
acting regional director for Africa. Prior to assuming his 
current post in May 2016 he served as IRI's deputy regional 
director for Africa in Washington, DC.
    Before returning to headquarters, Mr. Tomaszewski spent 
several years living on the African continent and managing 
various projects for IRI, focussing on political party 
strengthening, local governance, and civil society development, 
youth and gender initiatives and civic education in many 
African countries. He has also worked for two Members of 
Congress including on their campaigns.
    Mr. Nii Akuetteh serves as the founding executive director 
of the African Immigrant Caucus. He has lived in Nigeria and 
contributed to the strengthening of democracy across West 
Africa.
    He has also founded the Democracy and Conflict Research 
Institute, an NGO that focuses on fighting dictatorship and 
repression in Africa. Mr. Akuetteh worked on a anti-apartheid 
movement in the U.S., which led to the sanctions imposed 
against apartheid South Africa.
    He has taught at Georgetown University and served as the 
editor of a quarterly journal on U.S. relations with Africa and 
the Caribbean. Gentlemen, thank you.
    I now invite our first witness, Mr. Nackerdien, to give his 
opening statement.

   STATEMENT OF MR. RUSHDI NACKERDIEN, REGIONAL DIRECTOR FOR 
     AFRICA, INTERNATIONAL FOUNDATION FOR ELECTORAL SYSTEMS

    Mr. Nackerdien. Thank you. Mr. Chairman, on behalf of the 
International Foundation for Electoral Systems, I deeply 
appreciate this opportunity to discuss U.S. electoral support 
in sub-Saharan Africa.
    Since 1997, IFES has worked in more than 145 countries 
worldwide to support inclusive citizen participation and 
credible elections. In many parts of the world, IFES works with 
its partners, IRI, and NDI, and the Consortium for Elections 
and Political Process Strengthening, commonly known as CEPPS, 
on democracy, human rights, and governance programming.
    With support from USAID and several international partners, 
IFES has supported electoral processes across the subregion 
with 11 active programs in Burkina Faso, Cote d'Ivoire, Guinea, 
Kenya, Liberia, Mali, Nigeria, Tanzania, Uganda, Zambia, and 
Zimbabwe.
    Mr. Chairman, in the last decade policy makers worldwide 
have come to understand that elections are much more than just 
election day and this has resulted in an important shift in the 
policy process.
    I draw your attention to one of the poster boards that I've 
brought along, particularly the colored wheel. It's commonly 
referred to as the electoral process and today we understand 
the process to break down into three broad phases--namely, the 
pre-electoral, the electoral, and the post-electoral period.
    Typically, this process often runs 3 to 5 years and is a 
lengthy endeavor. Mr. Chairman, elections have been described 
as the biggest logistical exercise a country can undertake 
during peacetime.
    In most African countries, this exercise is done by a 
single election management body operating independently from 
party influence.
    If one takes the example of Nigeria, which is the poster 
board just being turned right now. For the 2015 polls the 
Independent National Election Commission employed more than 
12,000 permanent members of staff and more than 700,000 
temporary staff.
    All of these helped serve more than 6 to 8 million citizens 
that had to be registered, that had to be verified and they had 
to cast a vote on election day.
    This huge logistical and political exercise cannot be 
executed overnight. INEC was preparing for this since 2011, 4 
years in the making across the electoral cycle.
    This work was done in close partnership with organizations 
like IFES and all this occurred under the threat of attacks by 
Boko Haram.
    Mr. Chairman, IFES believes the following four areas are 
pivotal when it comes to election assistance. Number one, due 
to the complexity of organizing an election, targeted resource 
support must take place early in the electoral cycle--several 
years before election day.
    Number two, just as we combat extremism on a regional 
basis, so we should invest regionally in capacity building and 
building in particular election networks among election 
professionals.
    Number three, working with civil society is equally 
essential. Civil society plays an important role in the 
electoral cycle not only for carrying out civic and voter 
education activities but also for holding governments and 
electoral institutions accountable.
    Number four, in recent years DRC funding has either been 
redirected toward other priorities or has been increasingly 
divided across smaller sub parts, leaving decreasing 
investments for election and political process programming.
    IFES believes that the U.S. Government should reverse this 
trend, amplifying investments in election assistance as a cost 
effective way to pursue additional development objectives.
    Mr. Chairman, the electoral cycle approach can make 
election international assistance seem never ending. However, 
three critical points of exit or graduation from support do 
exist.
    Technical sustainability is considered the easiest to 
achieve. It describes a time when a country requires no further 
external assistance for the conduct of elections.
    Financial sustainability is the second component and the 
second hardest to achieve. This is achieved only when the funds 
for elections are derived from in-country sources. And lastly, 
political sustainability is the most difficult to achieve.
    It is based on the legitimacy of the entire process as well 
as the institution when both the outcome and the process are 
viewed as credible by all stakeholders both foreign and 
domestic.
    Mr. Chairman, a number of critical upcoming elections in 
Cote D'Ivoire, the Democratic Republic of the Congo, Gambia, 
Ghana, Kenya, and Zambia will help shape democracy on the 
continent.
    We respectfully recommend that the U.S. Government 
prioritize electoral assistance that is locally contextualized, 
is inclusive of women, people with disabilities, ethnic and 
religious minorities and other underrepresented groups, 
develops local expertise and consistently invests early and 
throughout the electoral cycle.
    Such assistance will not only facilitate Africa's 
navigation of very difficult times but might prove foundational 
to improve development outcomes in women's empowerment, health, 
economic growth, and food security.
    Mr. Chairman, in conclusion, thank you for this opportunity 
to testify. On behalf of IFES we are honored to partner with 
the U.S. Government and Congress, international aid 
organizations, our CEPPS partners, and of course the people of 
Africa in support of a more democratic and prosperous 
continent. I'm happy to answer any questions stemming from my 
testimony. Thank you.
    [The prepared statement of Mr. Nackerdien follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Donovan. Thank you, sir.
    The Chair recognizes Mr. Merloe for a 5-minute opening 
statement.

STATEMENT OF MR. PATRICK MERLOE, SENIOR ASSOCIATE AND DIRECTOR 
      OF ELECTION PROGRAMS, NATIONAL DEMOCRATIC INSTITUTE

    Mr. Merloe. Thank you, Chairman Donovan and Ranking Member 
Bass. I'd like to also thank Chairman Smith for his opening 
remarks which demonstrate the leadership of this subcommittee 
in expressing the concerns of the American people for the 
development of democracy and honest elections in Africa.
    Our time is short so I'd like to start with one thing that 
illustrates the points that I would like to make today. Two 
weeks ago I was the fortunate party to an exchange between 
former President Obasanjo of Nigeria and Mr. Kofi Annan, and I 
could summarize it more or less as follows.
    It's not so much that poor elections give a bad name to 
democracy as it is that political violence and undemocratic 
practices give elections a bad name.
    That quip encapsulates two of the most fundamental things 
about elections as far as I can see. The first is it captures 
the essence of elections--the two purposes that are 
interrelated--that they should resolve peacefully the 
competition for governmental office and political power. And, 
they should provide the citizens with the avenue, the vehicle, 
through which they express their will about who is going to 
have the authority to legitimately occupy governmental offices.
    These are not easy things, particularly in countries that 
have less than a longstanding democratic history and that have 
a proclivity among the political competitors toward using 
political violence to achieve their goals.
    We see that too often in Africa and around the world. 
Elections that are democratic really establish public 
confidence, and they also reduce and mitigate the potentials 
for political conflict. In that respect they help the 
realization of political rights of sovereign people.
    They also are important for international peace and 
security, and both of these are vital to the interests of the 
American people and people around the world, which is why 
today's hearing I think is so important to public concern.
    The second point that that quip illustrates is that 
elections are all about context. As you know, elections really 
are a barometer of the political climate in a given country as 
is illustrated even in our own circumstance.
    Elections are multi-dimensional reflections of social and 
political dynamics within a country, and in that sense 
electoral assistance should help to infuse democratic political 
culture.
    Three principals in electoral assistance are very important 
then to encapsulate. The first is inclusiveness. Political 
systems and electoral processes should help to guarantee 
universal and equal suffrage. They also should move political 
systems beyond winner take all politics and give the 
opposition, the losers, a stake in sustaining and building 
effective governance.
    The second principle is transparency. People have a right 
to general elections. They also have a right to know that their 
elections are genuine, and that requires that there be access 
to key political processes, key electoral processes and the 
data which are generated by them, so that they can 
independently verify for themselves the integrity of elections.
    And the third principal is accountability. There has to be, 
to be credible, accountability in election administration, in 
political competition and also in the electoral justice system 
so that the competitors who have a grievance have a reason to 
turn to peaceful redress rather than to actions that might lead 
to violence.
    These principles reinforce the potentials for sustained and 
positive democratic progress. They should be signposts for our 
engagements. Strengthening them should be a means of evaluating 
our success.
    In my written statement I mention three countries that 
illustrate how these principles have been integrated into 
electoral assistance in recent years.
    In particular, Kenya, Cote d'Ivoire, and Nigeria stand out. 
There are many others but they are worthy of consideration. I 
won't mention details here, but I will be happy to go into 
during questions.
    They each give positive examples of where U.S. support was 
complemented by assistance from other nations from the EU, the 
U.N. and others, and as my colleague from IFES mentioned, they 
each illustrate early targeted engagement, and they each 
illustrate that follow-up made a big difference.
    Mr. Chairman, not all countries receive adequate funding to 
address the needed and pressing causes around elections. 
Democracy and governance funding has faced several years of 
cutbacks, as you well know--particularly in Africa which was 
reduced by more than 40 percent last year.
    Those cuts have impacted the ability to respond to requests 
to monitor elections, to help develop civil society and 
political parties and to strengthen the fragile parliaments in 
those countries.
    Hopefully, these cuts can be restored in Fiscal Year 2016 
and beyond as Congress has sought to do through the omnibus 
appropriations bill.
    Citizens across the world have been putting themselves on 
the line, demanding honest elections and responsible and 
responsive governance. They have been asking for our assistance 
which demonstrates that democracy is coming--the demand for it 
is coming--from within. It's not being imposed.
    A number of cost-effective means of engagements have proven 
to be effective in promoting credible peaceful elections in 
Africa. In my written statement I identify 10 of those, and let 
me please highlight three this afternoon.
    The first is supporting indigenous efforts to remove 
barriers to political participation of women, including young 
women, young men and disabled people and other populations.
    Second is building cohorts of citizen election monitoring 
experts who can move across borders and through the regions, 
helping each other, building the impartiality and the 
systematic nature of election monitoring.
    As was mentioned by our colleagues from USAID, parallel 
vote tabulations--that is, an independent verification using 
statistical methods of election day processes and the vote 
count--have been critical in reducing tensions around 
elections--the potential for violence, and in building public 
confidence in elections. That's one illustration.
    But, of course, the voter registry in other areas are 
growingly important to verify as well.
    The third is to advance principles and standards through 
networks of the EMBs, election monitoring organizations, 
political parties and others, including through open electoral 
data and other principles that reinforce the integrity of 
elections.
    Constitutional issues that have been mentioned concerning 
the term limits, the dispersing of powers among branches of 
government also are important to give people stakes and to be 
inclusive in governance.
    All of these issues are related to circumstances where 
power is abused, where decks are stacked, where corruption 
subverts government's ability to improve citizens' lives, and 
these turn citizens away from government toward apathy, toward 
authoritarianism and toward extremism.
    It's therefore, in conclusion, in our common interest, to 
help homegrown efforts to address electoral integrity.
    Mr. Chairman, among the numerous elections in Africa that 
are on the horizon, I would highlight five that merit further 
consideration perhaps in questions.
    Zambia and Ghana, which have been mentioned. I'm departing 
on Friday for Zambia. I'm going later in the month with Mr. 
Kofi Annan to Ghana because of his concerns around developments 
in that country. Cote d'Ivoire and Kenya, where we have 
invested so much, where electoral violence has cost the people 
so much, and where these investments really can be threatened--
particularly in Kenya with the crisis that's been developing.
    And of course, in the Democratic Republic of the Congo, 
where in a sense a perfect political storm has been brewing, as 
been mentioned by my colleagues earlier.
    In all of these countries, developing democratic political 
processes is key to achieving credible peaceful elections, and 
engagements that promote inclusiveness, transparency and 
accountability must be tailored to their context. Those 
principles are central for successful democracy support 
strategies in Africa.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Merloe follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Donovan. Thank you, Mr. Merloe.
    The Chair now recognizes Mr. Tomaszewski for a 5-minute 
opening statement.

STATEMENT OF MR. JOHN TOMASZEWSKI, ACTING REGIONAL DIRECTOR FOR 
           AFRICA, INTERNATIONAL REPUBLICAN INSTITUTE

    Mr. Tomaszewski. Chairman Donovan, Ranking Member Bass, 
thank you for this opportunity to testify before you today on 
effective democracy assistance on the African continent.
    IRI currently works in 14 sub-Saharan African countries 
with grants from USAID, State Department, and the National 
Endowment for Democracy.
    IRI is also a partner of the CEPPS consortium, which you've 
heard about today. As a former country director for IRI's Kenya 
office and a deputy country director in South Sudan and Egypt, 
I've seen firsthand the impact of democracy assistance. Direct 
impact.
    Mr. Chairman, Africans today are largely committed to 
democracy over other forms of government. According to a 2014 
analysis, Biafra barometer, 7 in 10 Africans prefer democracy 
and a proportion of those rejecting alternatives rose steadily 
over the past decade.
    African nations that remain undemocratic grappled with 
protracted conflict, transnational migration, corruption and 
leaders who, despite the outward appearance of being 
democratic, maintain their hold on power to the detriment of 
their population.
    We must fully appreciate the link between failures of 
governance, refugee flows and the draw of extremist groups like 
ISIS, al-Shabaab, Boko Haram across the continent. A secure and 
stable Africa is of paramount national security to the United 
States.
    The development of functional and institutionalized 
democratic systems is the only way to ensure that in the long 
term African countries will be equipped to meet the needs and 
expectations of their rapidly growing populations.
    Nigeria, for example--and it's an example we've talked a 
lot about today--is of great strategic importance to the United 
States. The country's 2015 elections are a good case study 
indeed for effective U.S. democracy assistance.
    Since Nigeria's 1999 return to citizen rule, IRI and its 
CEPPS partners have implemented DRG programs to strengthen 
capacity of the ruling and opposition parties, election 
management bodies, civil society, the media and, most 
importantly, the voters.
    In the end, and despite some of its shortcomings, the 
election resulted in the peaceful handover of power from the 
incumbent President Jonathan to the now-President Buhari.
    Mr. Chairman, the importance of this outcome for Africa's 
most populous country cannot be overstated. This peaceful 
transfer of power was not the result of a single election but a 
series of regular and sustained electoral contests for 
President that enabled the system to mature and become more 
democratic over time.
    U.S. assistance through IRI, NDI, IFES, and our local 
partners has made a significant contribution to this successful 
outcome.
    Mr. Chairman, in spite of these successful programs, 
however, the environment in which we operate--our 
organizations--including the political and operating context, 
funding levels and administrative landscape presents 
substantial challenges.
    Our experience shows that DRG funding for Africa ramps up 
in advance of elections. Of IRI's current USAID and State 
Department funded programs in Africa, 80 percent focus 
substantially on support to electoral processes.
    In each case, funding for the inner electoral period is 
uncertain. Elections are seminal events indeed in democratic 
societies, and we must recognize that fundamental democratic 
deficits in political systems lie in the day-to-day business of 
governments and their relationships with citizens between 
elections.
    Where democracy assistance is limited to electoral 
processes, the funding often becomes available to implementers 
late in the pre-election period. For instance, in Tanzania the 
CEPPS partnership received funding in June 2015, only 5 months 
prior to the October 2015 elections.
    Similarly, in Uganda, where we've just had a very 
interesting election, the CEPPS partners received funding in 
late May 2015 for February 2016 elections. In both cases, DRG 
support in the post-election period has not yet been 
determined, though it is critically needed for both countries, 
I think we would all agree.
    Furthermore, over the last few years, IRI has experienced 
firsthand the realities of a challenging funding landscape. DRG 
programs account for only 4.7 percent of overall foreign 
assistance.
    Total U.S. Government support for DRG programs has been on 
the decline, falling by 38 percent between 2009 and 2015, with 
Africa receiving a 44 percent cut during that period, according 
to an analysis by InterAction.
    At this important juncture in Africa's development, now is 
the time to reinforce our commitment to resilient democracies 
by funding DRG programs at robust levels.
    Finally, and this is something that's been commented on 
already, selecting the appropriate procurement mechanism for 
DRG awards is an essential component to achieving impactful 
sustainable results.
    USAID has released a revised ADS Chapter 304 and we 
understand we'll be providing USAID employees with amplifying 
guidance on the applicability of ADS 304 to DRG awards.
    We commend USAID for taking this action and urge that USAID 
Missions implement the new regulations as intended and that 
both USAID and Congress conduct applicable oversight.
    Mr. Chairman, in his historic 1982 Westminster speech--and 
I have to talk about President Reagan--and at the height of the 
Cold War, President Ronald Reagan said of democracies, ``Day by 
day, democracy is proving itself to be a not at all fragile 
flower.''
    I share President Reagan's optimism that with effective 
U.S. assistance, IRI and its partners, can have a large impact 
in consolidating democracy in Africa.
    Thank you.
    [The prepared statement of Mr. Tomaszewski follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Donovan. Thank you, Mr. Tomaszewski.
    The Chair now recognizes Mr. Akuetteh for an opening 
statement.

STATEMENT OF MR. NII AKUETTEH, EXECUTIVE DIRECTOR, THE AFRICAN 
                        IMMIGRANT CAUCUS

    Mr. Akuetteh. Thank you very much, Chairman Donovan and 
Ranking Member Bass. I really appreciate not just being 
included in this panel but as always for all the work that this 
committee and subcommittee does.
    This time, particularly, I'm extremely happy for two 
reasons--because of the focus on democracy and U.S. democracy 
assistance programs in Africa it's very dear to my heart and, 
of course, I have been included to talk a little bit more about 
the country where I was born--Ghana.
    Now, Ghana has enjoyed a lot of kudos and praise, 
particularly when it comes to elections and turning over power 
peacefully to parties that are out of power who win elections 
and I think those kudos are well earned.
    The question that has been raised, especially when it's 
been mentioned that DRG programs have been cut, is that there 
have been times when the thinking is that Ghana does a good job 
and therefore U.S. assistance should focus on more challenged 
countries on the continent.
    It is true there are countries that are not doing as good a 
job. But I am here to make the case why attention should not be 
shifted from Ghana and where it has been shifted it should be 
refocused back particularly for the upcoming elections which 
happen a day before the U.S. elections in November. Ghana votes 
on November 7.
    And there are a couple of reasons that I want to cite. In 
my own lifetime, I have seen political violence in Ghana in the 
early 1960s and 1970s and therefore nobody should think that 
electoral political violence Ghana is immune to those. They are 
not.
    What will make them immune is good processes and 
transparency. Now, when it comes to what are the actual reasons 
for focusing and looking at Ghana now, which is what I was 
asked to address, I focus on five reasons.
    President Clinton visited Ghana. So did President Bush and 
then, of course, President Obama visited Ghana. All of these 
point to the fact that Ghana and the U.S. now are friendly 
countries and therefore I think supporting elections in Ghana I 
would cite as something that friends with capacity help other 
friends do.
    Secondly, Ghana does enjoy sort of immortal status in 
Africa on a few issues, from independence but also on holding 
elections and therefore it seems to me that whatever gains 
Ghana has made when it is assisted to maintain those gains the 
news spreads in Africa.
    Other African countries do look at Ghana and therefore 
supporting Ghana's electoral processes will be a way for the 
U.S. to spread the word for democracy across the continent.
    But there is another reason why. The previous elections in 
Ghana and what has been called the Fourth Republic, which 
started in 1992, 24 years ago, there have been six elections.
    The one in November will be number seven. All six have been 
peaceful pretty much and power has been turned over to the 
party out of power on two occasions.
    However, those have been very close elections and they have 
been disputed. Now, at the time they were called free and fair 
elections. We have had some instances where American experts 
have gone back, looked at some of the things and said well, 
maybe we missed this or that and therefore there is a strong 
case for making sure that now we look at the elections closely 
and don't miss any weaknesses that might be there.
    A further reason is that 6 months away from Ghana's 
election if you look at what is happening on the ground now, 
there is heated campaigning. There are even people who have 
already said and have even complained to units like USAID 
offices and the Embassy that look, if things don't go well 
there might be violence.
    Given that that has been said and given that Ghana has 
known political violence in its history this adds to the 
argument for saying that despite the reduction of looking at 
Ghana because of good elections this particular election needs 
assistance and attention from the United States. And the final 
argument that I make is this. The shifting resources and 
attention from Ghana to other African countries can be 
justified when they have greater needs. But another way of 
looking at it is that it is important to stay with Ghana and 
provide assistance in order to protect the investment and the 
gains that have already been made. So that is a final argument 
for that.
    Now, I also took the liberty of suggesting a few ways for 
improving electoral assistance in Ghana. My colleague mentioned 
how late sometimes the funding comes. In my work in west Africa 
in promoting democracy we actually made the point that watching 
elections and balloting is important. But Ghana, for instance, 
has a 4-year cycle.
    A lot of things happen before and after the balloting and 
therefore a key recommendation is projects have to be designed 
and have to be included in budgets to make sure that there are 
things being done both before and after elections, sometimes 
years before.
    If you look at how elections are compromised in different 
countries including African ones, those who compromise 
elections are getting smarter by the day. So they don't steal 
the elections. They don't stuff the ballots so much. They can 
do things before we arrive at the elections. So it means that 
electoral programs should also be done during periods and 
looking at the processes before we actually vote.
    And the final recommendation I will make, when you look at 
Ghana there are a number of competent NGOs and many of them are 
run by people who are friends of mine.
    But I do think that the assistance to NGOs in Ghana needs 
to be diversified so that only a few favorite NGOs do not get 
all the assistance. Earlier, when the first panel discussed 
their submissions I noticed they talk about both IRI and NDI 
doing democracy work. I think that kind of ideological balance 
is also needed in countries including Ghana.
    And I thank you again for doing this hearing on democracy 
including Ghana and inviting my views. I will be happy to 
answer any questions.
    Thank you.
    [The prepared statement of Mr. Akuetteh follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Donovan. Thank you, sir.
    I'm going to allow myself 5 minutes. I promised the 
witnesses and I promised my friend from California we'd be out 
of here by 5 o'clock. So allow me 5 minutes.
    Mr. Nackerdien, you answered both of my questions that I 
had for you during your testimony. Either you read my notes or 
you were incredibly well prepared. So please don't be excited 
that I don't ask you a question. I had two questions for you. 
You answered both of them. Thank you.
    No reflection on you, Mr. Merloe. I do have a question for 
you. It means that you didn't address it in your testimony. You 
talked about inclusiveness and I was concerned about women and 
minority ethnic groups that are being marginalized in many 
elections on the continent today.
    Is progress being made in the area, particularly for women?
    Mr. Merloe. Thank you, Mr. Chairman.
    The answer is both no and yes. In one sense, there's not 
enough progress being made. There's no question about that, and 
that would be the answer practically in 95 percent of the 
countries around the world where we were discussing this topic.
    The answer is yes in this sense. There is a mobilization 
and the waking of people around the world including women, 
including young women when we talk about youth, to step forward 
and take their place in public affairs. That's happening in 
every country around the world. And donors and people like 
ourselves who are not donors but who are activists who choose 
to leave our own countries and go across borders and join hands 
in association with our friends or reformers have recognized 
this as well.
    So there are places. There are many places. The African 
Union, for example--Ranking Member Bass, you asked about the 
AU--the African Union's political division is headed by a group 
of people including women who recognize the importance of 
expanding the franchise of women and youth both as participants 
in the process and as candidates and as political leaders.
    NDI, just speaking for my own organization, has a 
memorandum of understanding with the AU to work on youth 
participation across the continent. We have money from USAID in 
certain countries to work in training women political 
candidates. Kenya was mentioned by the USAID representative.
    We have civil society activities where we do this. 
Certainly, with the millions of citizens who have come forward 
to monitor the integrity of their own elections, something that 
we don't see so much in the United States but elsewhere in the 
world, it takes place. These are young people and women who are 
represented in proportion to the population.
    So there are things that are happening that are very 
encouraging. I think the awareness among organizations on the 
ground--homegrown organizations and international 
organizations--is also increasing. Donors and others are 
getting with it.
    Mr. Donovan. Thank you, sir.
    Mr. Tomaszewski, I don't know if it was in your written 
testimony or your oral testimony. You were talking about 7 in 
10 Africans in about 28 different countries view the elections 
as either completely fair, fair, or fair with only minor 
problems.
    Is their perception correct and if it is that's great. If 
it's not, why do you think their perception is that way?
    Mr. Tomaszewski. Well, I think that the very important 
aspect here is that there are more elections and they're 
happening more frequently, and when you have that happen you 
have more and more of an opportunity to get it right.
    Additionally, when we talk about 7 in 10 Africans, we're 
talking about people who are participating in a process and 
learning how to become more involved in their government. I 
think this goes back to part of the testimony that I was 
talking about where elections are something, when done over and 
over again, more people feel a part of the process.
    We often talk about one activity we're doing in one country 
for one election like civic and voter education. That education 
process is certainly something that has to be done, but much 
more deeply than just how to vote. In a lot of these 
countries--I know in Kenya--people know how to vote. They know 
how to do it. But it's all the things around the election that 
really concern them.
    And, of course, Kenya is one example where perhaps it's a 
little more polarized about the opinion of whether or not those 
elections are free and fair or not, and it's often tied to the 
outcome more than just the operation and the process.
    So it's a little bit of a mix of everything. But I think 
the trend is that it's a sign that more elections are happening 
and there's more opportunities for people to participate, so 
they feel more engaged.
    When you feel more engaged, you have a stake to play, and 
you certainly have a more enlightened view about the election 
itself, and you look at it as something--well, it happened--I 
participated. It may not be perfect but I feel like I was a 
part of it.
    Mr. Donovan. Thank you, sir.
    Mr. Akuetteh, your country has a special place in my heart. 
My mother passed away last month and for the last 4 years of 
her life she was cared for in her home by a woman from Ghana 
who treated my mother as if she were her own.
    So I just wanted to ask you, you spoke about the peaceful 
transfer of power in many of your elections. I believe you said 
the last two elections. Ghana seems unique in that sense.
    There's others, I think, that you all mentioned. I'm 
hanging around with the people from Mississippi too much. I 
just said you all. But it seems that Ghana is unique in that 
facet of the elections. Why do you think that is?
    Mr. Akuetteh. Well, first of all, I'm sorry for your loss. 
But I'm also glad that somebody born in the same country--a 
sister of mine contributed.
    It is hard for me to say because I look at Africa and the 
countries. They are artificial creations by the Europeans and 
therefore in many cases I don't think that one African country 
is that different from another.
    It may be the experiences both during colonialism and then 
since. In the case of Ghana in particular, when I look at, you 
know, that there is less polarization politically and 
ethnically than other African countries I think one of the 
credits I give is the first President of Ghana, who made 
dampening ethnic identity a special importance of his and 
building a country where people see themselves as Ghanaian 
first. So that has to do with--I mean, that is one explanation.
    In terms of turning power over peacefully, Ghana did have a 
lot of coups. In fact, that President was overthrown in 1966. 
We had lots and lots and lots of coups and attempted coups, and 
when I talk to Ghanaians and in my own thinking Ghanaians tried 
everything else. You know, colonialism was imposed on us. Then 
we had one-party system. Then we had coups, and Ghanaians came 
to the realization that the best form of government that will 
work for us is a leader that we choose and if we don't like 
them we throw them out.
    By the way, in Ghana these days when people stick out their 
thumb it's not the American way of saying ``okay.'' It's just 
warning politicians that we will be voting. Because in Ghana 
when you vote your thumb is stuck in ink and so when they hold 
it up it's like well, we see what you are doing--don't forget 
elections are coming.
    But whatever it is, I'm saying that I think those are in 
other African countries too and it would be good to find out 
how to bring it to the fore.
    Mr. Donovan. Thank you, sir.
    American voters hold up a finger too but it's not their 
thumb. The Chair recognizes the ranking member from California, 
Congresswoman Bass.
    Ms. Bass. Well, first of all, let me thank all of you for 
your patience, first of all, and your testimony.
    I just have a couple of questions.
    Mr. Tomaszewski. You mentioned about how funding ramps up 
right before an election and I wanted you to talk a little bit 
more about that because I was under the assumption that funding 
is given out in a calendar year or fiscal year.
    So are RFPs put out or something? Explain what you meant by 
that.
    Mr. Tomaszewski. Well, the procurement process depending on 
the mission, depending on the funder, certainly has a role to 
play in that. Also, you have situations like you have in DRC 
right now where funders are waiting to see what's happening, 
right?
    You don't want to go down a road of funding a certain set 
of priorities in an election program when you may need to go in 
another way. So I think that plays a role in it.
    More concerning for us, though, is that when we treat 
elections as an episode----
    Ms. Bass. Right. Right.
    Mr. Tomaszewski [continuing]. As a thing that happens once 
we don't realize--and we asked some questions about 
historically marginalized groups, women and youth--how do you 
impact them and empower them if 6 months before an election 
you're just touching them--you're just starting to engage them.
    You're just starting to talk to a woman and help her to 
prepare herself to run for a competitive election in a 
landscape that's tilted against her from the beginning. You 
can't do that 6 months out.
    Ms. Bass. So and I'm asking and speaking about the U.S. 
funding--our side--especially since, as I understand it, the 
democracy rights and governance funding has been decreased 44 
percent, which is huge.
    So in terms of our funding, though, is that the way it's 
distributed? DRC, for example, I would think there would be a 
whole rush of funding to try to prevent something as opposed to 
holding back and waiting to see whether it's going to collapse 
or not.
    Mr. Tomaszewski. Well, I can cite the example I used in my 
testimony regarding Tanzania. To have an elections program or 
elections assistance, which we received from USAID funding 
through our CEPPS partnership just 5 months to the election.
    And when we were asked to submit a proposal for this 
project, we were given a very short time line to come up with 
the projects, to put them down in time, to bring the partners 
together, to engage about what was our strategy, what was our 
entry point.
    And to do that with such a close time to elections it's 
very hard. You've got to really stretch yourself very thin just 
to make the impact that you need to get the right assistance 
that's needed on the ground.
    Ms. Bass. So I guess your point is that--because I just 
totally assumed that the funding was ongoing and----
    Mr. Tomaszewski. It may be ongoing. It may be available. 
But, certainly, it has to go through that process of putting 
the RFP out there, of putting the--coming up with the funding 
mechanism and the timing for it. These are things, of course, 
we would like to see happen a lot earlier in the process.
    Ms. Bass. Okay. So the next election in Tanzania is in 4 or 
5 years?
    Mr. Tomaszewski. Yes.
    Ms. Bass. 4 years? So is there an RFP now for that 
election?
    Mr. Tomaszewski. No.
    Ms. Bass. There should be an RFP now for that election.
    Mr. Tomaszewski. Let's look at Tanzania. For the first time 
we saw a really strong competitive election from the opposition 
through Ukawa.
    We saw many, many youth who were never involved in 
elections get inspired and be involved in elections. We have 
many, many youth and women who have been elected to Parliament 
and other positions in government, and they need our help now 
so, one, they can get elected.
    Ms. Bass. Right.
    Mr. Tomaszewski. Two, so the youth--the civil society youth 
networks that were built pre-election can be continued and 
strengthened. I think we go back to our question of Ghana. We 
do our victory dance. They have peaceful transfers of power, 
successful elections and then all of a sudden we think well, 
we're good--let's go home.
    Ms. Bass. Right
    Mr. Tomaszewski. And now what we're seeing in a place like 
Ghana today, we've kind of left our foot off the gas and now 
we're moving into a possible crisis.
    Ms. Bass. So you would say then it's just the general 
procurement process?
    Mr. Tomaszewski. And planning on the part of U.S. 
assistance providers.
    Ms. Bass. Really not a good use of money to do that that 
way, and that you two were exchanging glances so it looked like 
you wanted to comment about that, Mr. Merloe and Mr. 
Nackerdien.
    Mr. Merloe. Thank you, Representative Bass. Yes, the first 
I think it comes from a question of understanding. As Rushdi 
pointed out, elections are not an event. We all agree.
    Ms. Bass. Right.
    Mr. Merloe. When you look at elections as a cycle and you 
start with the pre-elections and all the things that happen 
post-elections--they connect up.
    But what I think we're really saying is that elections are 
not even two-dimensional. They really go into the political 
fabric and culture of a country.
    So if you want to help people who have been marginalized 
become part of a process it's an ongoing activity that has a 
lot of dimensions and takes a lot of time.
    Two things that I would just re-emphasize. One is funding 
is scarce, and so when USAID or State Department's DRL are 
looking at these things, they're husbanding their resources and 
trying to decide what to do. They hedge their bets in part 
because of that.
    But they also, I think, see this problem of understanding 
elections as being something that really is a political 
dynamic; it's part of building democracy--it's not just part of 
casting ballots.
    Limiting that understanding takes away from the 
opportunities, and that diminishes the effectiveness of the 
kinds of programming that are done, which need to be around the 
calendar and need to be over a large arc of time.
    The second thing is elections are volatile--so attention 
tends to be directed when volatility goes up. We're talking 
about Ghana today. We weren't talking about Ghana in November 
or in October of last year, except the insiders, and that's 
because volatility has gone up.
    But it was very clear at the end of the last election that, 
first, it was a razor-thin decision. Second, the election 
commission itself was under attack. Its credibility had been 
diminished somewhat because of the controversy.
    Third, the Supreme Court--and the commission and the court 
are the two interlocutors in the circumstance--the decision of 
the court took a very long time, which stretched out the 
volatility and the tensions in the country.
    As a consequence, there's a new commission. The new 
commission doesn't have the history of the last commission. 
Public confidence has been shown in all of the opinion polls in 
that body and in the courts, which were very high, now to have 
diminished a lot.
    The resources are up and the stakes are higher because of 
the age of the people who are contesting and a number of other 
factors. It's not hard to figure out that Ghana needed 
attention 6 months ago. There's 6 months to go.
    We now are talking about doing this, and a lot of people 
are reacting. I mean, I do want to give credit where credit is 
due. A lot of people are reacting but it's late in the game. We 
need to----
    Ms. Bass. Thank you.
    Mr. Merloe [continuing]. Look at these things from a much 
more strategic and a much more holistic and fulsome view.
    Ms. Bass. Thank you.
    Mr. Nackerdien. Thank you. We talk about the electoral 
cycle and getting involved early. I think one of the great 
benefits of having more democracies on the African continent is 
the fact that it's actually quite predictable.
    We know in Tanzania there will be an election in 4 years' 
time.
    Ms. Bass. Right.
    Mr. Nackerdien. We know in Ghana the election is happening 
now but it will happen in another cycle and we can plan 
accordingly. In many of the countries where we've had 
tremendous impact it's where we've maybe been 10, 15 years and 
it's not with a huge amounts of funding that might be required 
in places like the DRC where the infrastructure is low.
    But it's in places where we're able to sustain through 
innovative programming and working at the core with different 
groups whether it is with election commissions and helping them 
develop their process and building trust or with political 
parties or with civil society organizations, systematically 
building capacity and ramping up over a period of time, not 
just 6 months before the election. We talk about the electoral 
cycle but there's a predictability about elections often 
crafted constitutions and that's what we must work with.
    Ms. Bass. Thank you. And Mr. Akuetteh, why don't you close 
us out?
    Mr. Akuetteh. I do want to thank you again for holding 
this.
    I share everything that has been said. In fact, I think 
because the level of English is better here it's been said more 
elegantly.
    But I do support that when we--because elections are cycles 
the funding and the planning should be adjusted so that there 
is attention to various things that need to be done before 
balloting arrives and even following the balloting that there 
will be things to do.
    And I will cite the example that Kofi Annan and I share a 
country of birth and if he thinks that Ghana needs attention 
and he's turning his attention to it again I think it is good 
that this hearing is being held and that the agencies that fund 
elections will look at Ghana again not from a negative point of 
view but to consolidate the real progress that has been made so 
that this passage of elections, clean elections, and peaceful 
handover.
    If it is necessitated--if the opposition does win, and I'm 
not saying they will win, we don't know yet, but if they do win 
that will continue the pattern of peaceful transfer. Thank you 
again.
    Mr. Donovan. Thank you, Ranking Member Bass. I'd like to 
thank our panelists for your presence today, for your testimony 
and for your honest answers to our questions. I'd ask all our 
visitors at the conclusion of the hearing to clear the room. 
They need the room for another event that's coming, following 
right behind us.
    This subcommittee having no further business, this hearing 
is now adjourned.
    [Whereupon, at 5:06 p.m., the committee was adjourned.]

                                   

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
